No. 21-____
IN THE

Supreme Court of the United States
TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
Petitioners,
v.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 2nd day of August, 2021, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Counsel for Respondent:
John A. Rife
TAXING AUTHORITY CONSULTING
SERVICES, P.C.
P.O. Box 31800
Henrico, VA 23294
(804) 545-2500
john@taxva.com

Kathleen Dooley
FREDERICKSBURG CITY ATTORNEY
600 Caroline Street
Fredericksburg, VA 22401
(540) 372-1020
kdooley@fredericksburgva.gov

/s/ Allyson N. Ho
Allyson N. Ho

